              Computer Security Roles and Responsibilities
                and Training Should Remain Part of the
                 Computer Security Material Weakness

                                 September 2004

                       Reference Number: 2004-20-155




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220



INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 29, 2004


      MEMORANDUM FOR CHIEF INFORMATION OFFICER
                     CHIEF, MISSION ASSURANCE


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Computer Security Roles and
                                    Responsibilities and Training Should Remain Part of the
                                    Computer Security Material Weakness (Audit # 200420003)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) has effectively resolved the vulnerabilities associated with its
      computer security material weakness. The IRS has categorized this material weakness
      into nine areas,1 three of which are addressed in this report: security roles and
      responsibilities, segregation of duties, and security training. From our perspective,
      these three areas collectively address the root causes of many of the security
      weaknesses covered in the other six material weakness areas reported by the IRS.
      The Department of the Treasury requested that the Treasury Inspector General for Tax
      Administration (TIGTA) provide an independent assessment of the effectiveness of the
      IRS’ actions to address its computer security material weakness. This review is one of
      five reviews conducted this fiscal year to meet this request.
      In summary, the IRS has taken some key steps to address security roles and
      responsibilities, segregation of duties, and training. Efforts on segregation of duties, in
      particular, justify closure of this area from the computer security material weakness.
      The IRS has effectively defined and segregated security tasks among key employees to
      reduce the opportunity for any one person to perpetrate and conceal inappropriate or
      fraudulent activities. Existing security weaknesses were not attributed to inadequate
      segregation of duties.
      1
       The computer security material weakness consists of (1) network access controls; (2) key computer applications
      and system access controls; (3) software configuration; (4) functional business, operating, and program units
      security roles and responsibilities; (5) segregation of duties between system and security administrators;
      (6) contingency planning and disaster recovery; (7) monitoring of key networks and systems; (8) security training;
      and (9) certification and accreditation.
                                            2

Much work remains, though, before the roles and responsibilities and training areas are
closed. Until these areas are adequately addressed, the IRS will have little chance of
implementing effective security controls, and computer security will remain a material
weakness.
While security roles and responsibilities have been defined, we continue to identify
significant security weaknesses throughout the IRS that we attribute to key employees
not performing those responsibilities. For example, vulnerabilities continue to exist on
the network and in sensitive systems across the IRS. Patch management and/or audit
trail weaknesses are prevalent in the Mainframe, UNIX, and Windows computer
environments. In addition, business owners have not carried out their responsibilities to
accredit their systems and to annually assess the security controls of those systems.
The IRS has initiated actions to address the training material weakness area; however,
more actions are needed before it is downgraded or closed. Several steps were not
completed or were not effective. Specifically, the following steps need further
improvement: identifying employees with key security responsibilities, effectively
communicating the security core training curriculum and training courses, and
periodically monitoring for course participation.
While we recommended the Chief, Mission Assurance, remove the segregation of
duties area from the computer security material weakness, we recommended the
security roles and responsibilities area remain part of the computer security material
weakness until corrective actions related to prior TIGTA recommendations have been
addressed. The Chief, Mission Assurance, should also keep the security training area
as part of the computer security material weakness until all employees with key security
responsibilities are identified, monitored, and adequately trained. We also
recommended the Chief Information Officer ensure his employees with key security
responsibilities are adequately trained to perform security duties and tasks.
Management’s Response: Management’s response was due on September 27, 2004.
As of September 28, 2004, management had not responded to the draft report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
              Computer Security Roles and Responsibilities and Training Should
                 Remain Part of the Computer Security Material Weakness


                                                  Table of Contents


Background ............................................................................................... Page 1
Better Implementation of Roles and Responsibilities Is Needed
Before This Material Weakness Area Is Downgraded ............................... Page 3
         Recommendation 1: .......................................................................Page 6

Efforts on the Segregation of Duties Material Weakness
Area Justify Closure .................................................................................. Page 6
         Recommendation 2: .......................................................................Page 7

More Actions Are Needed Before the Security Training
Material Weakness Area Is Downgraded .................................................. Page 7
         Recommendation 3: .......................................................................Page 10
         Recommendations 4 and 5: ...........................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
             Computer Security Roles and Responsibilities and Training Should
                Remain Part of the Computer Security Material Weakness

                                   The Federal Managers’ Financial Integrity Act of 19821
Background
                                   requires that each agency conduct annual evaluations of its
                                   systems of internal accounting and administrative controls
                                   and submit an annual statement on the status of the agency’s
                                   system of management controls. As part of the evaluations,
                                   agency managers identify control areas that can be
                                   considered material or significant weaknesses.
                                   The Department of the Treasury has defined a material
                                   weakness as, “shortcomings in operations or systems which,
                                   among other things, severely impair or threaten the
                                   organization’s ability to accomplish its mission or to prepare
                                   timely, accurate financial statements or reports.” The Office
                                   of Management and Budget (OMB) monitors progress on
                                   these weaknesses.
                                   When the Internal Revenue Service (IRS) Security Program
                                   evaluated the state of security within the IRS in 1997, it
                                   noted the lack of detailed security policies, procedures,
                                   standards, and requirements. It found that IRS officials
                                   were interpreting policies and procedures in a variety of
                                   ways. In some cases, IRS officials were unaware of, or
                                   were ignoring, the policies and procedures, resulting in an
                                   undisciplined security environment. As a result, the IRS
                                   declared five security areas as material weaknesses.2
                                   In October 2002, the IRS combined the five security
                                   material weaknesses that were mostly based on facility
                                   types into one material weakness. Its goal was to address
                                   computer security from an enterprise-wide approach and
                                   better align the weakness areas with the new organizational
                                   structure. The IRS further categorized the computer
                                   security material weakness into nine areas.3


                                   1
                                     31 U.S.C. §§ 1105, 1113, 3512 (2000).
                                   2
                                     The five material weaknesses were Computing Center Security, Field
                                   Office Security, Service Center Security, Other IRS Facility Security,
                                   and System Certification.
                                   3
                                     The computer security material weakness consists of (1) network
                                   access controls; (2) key computer applications and system access
                                   controls; (3) software configuration; (4) functional business, operating,
                                   and program units security roles and responsibilities; (5) segregation of
                                   duties between system and security administrators; (6) contingency
                                   planning and disaster recovery; (7) monitoring of key networks and
                                   systems; (8) security training; and (9) certification and accreditation.
                                                                                                     Page 1
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                      The Department of the Treasury requested that the Treasury
                      Inspector General for Tax Administration provide an
                      independent assessment of the effectiveness of the IRS’
                      actions to address the computer security material weakness.
                      This report is one of five reviews we conducted this fiscal
                      year to meet this request and addresses the following three
                      weaknesses:
                          1) Computer security roles and responsibilities were
                             not defined for functions in the business units and
                             the office of the Chief Information Officer as
                             required by the Federal Information Security
                             Management Act (FISMA).4
                          2) Duties were not segregated between system
                             administrator and security administrator
                             responsibilities.
                          3) Computer security training was not provided to
                             employees who are assigned key security
                             responsibilities.
                      From our perspective, the three areas collectively address
                      the root causes of many of the security weaknesses covered
                      in the other six material weakness areas reported by the IRS
                      (network access, application and system access, system
                      software configuration, audit trails, disaster recovery, and
                      certification and accreditation of sensitive systems).
                      This audit was conducted in the Office of Mission
                      Assurance and the Information Technology Services
                      (ITS) organization at the IRS Headquarters in
                      New Carrollton, Maryland; the Brookhaven, New York ,
                      and Memphis, Tennessee Campuses;5 and the
                      Martinsburg, West Virginia, and Memphis, Tennessee,
                      Computing Centers6 during the period August 2003 through
                      May 2004. The audit was conducted in accordance with
                      Government Auditing Standards. Detailed information on
                      our audit objective, scope, and methodology is presented in

                      4
                        Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                      5
                        IRS campuses process paper and electronic submissions, correct errors,
                      and forward data to the Computing Centers for analysis and posting to
                      taxpayer accounts.
                      6
                        IRS Computing Centers support tax processing and information
                      management through a data processing and telecommunications
                      infrastructure.
                                                                                      Page 2
            Computer Security Roles and Responsibilities and Training Should
               Remain Part of the Computer Security Material Weakness

                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  IRS policy requires all IRS employees and contractors to be
Better Implementation of Roles
                                  responsible for ensuring the confidentiality, integrity, and
and Responsibilities Is Needed
                                  availability of data processed or stored on the computer
Before This Material Weakness
                                  systems. Each employee and contractor has a security role,
Area Is Downgraded
                                  sometimes several roles, with a corresponding set of routine
                                  responsibilities.
                                  The IRS has assigned technical computer security
                                  responsibilities to system administrators and security
                                  administrators. Generally, system administrators are
                                  responsible for day-to-day systems operations, and security
                                  administrators are responsible for specific security tasks and
                                  security oversight. The ITS organization has responsibility
                                  for ensuring system administrators carry out their
                                  system-related duties, while the Office of Mission
                                  Assurance has responsibility for providing oversight and
                                  guidance when needed.
                                  Other employees also have security-related responsibilities.
                                  For example, business owners must conduct annual security
                                  self-assessments of their systems, as required by the
                                  FISMA. Self-assessments provide a method for agency
                                  officials to determine the current status of their information
                                  security programs and, where necessary, establish a target
                                  for improvement. In addition, business owners are required
                                  to accredit their information systems at least once every
                                  3 years.
                                  National Institute of Standards and Technology (NIST)
                                  guidance states that a successful information technology
                                  (IT) security program includes: 1) developing an IT
                                  security policy that reflects business needs tempered by
                                  known risks; 2) informing users of their IT security
                                  responsibilities, as documented in agency security policy
                                  and procedures; and 3) establishing processes for
                                  monitoring and reviewing the program.7
                                  The IRS planned to complete the following actions to
                                  address the roles and responsibilities material weakness
                                  area:

                                  7
                                   NIST Special Publication 800-50, Building an Information Technology
                                  Security Awareness and Training Program (October 2003).
                                                                                              Page 3
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                         •   Define security roles and responsibilities.
                         •   Finalize procedures and guidelines for security roles
                             and responsibilities. Pilot test security roles and
                             responsibilities at model facilities.
                         •   Complete rollout schedules and the training program
                             needed to execute and enforce security standards.
                         •   Implement security procedures and guidelines.
                         •   Conduct compliance assessments to ensure roles and
                             responsibilities are effectively implemented.
                      The IRS has taken some key steps to address the security
                      roles and responsibilities material weakness area by
                      completing the following actions:
                         •   Developed a roles and responsibilities matrix
                             incorporating guidance from the Internal Revenue
                             Manual (IRM), NIST, public laws, and regulations.
                         •   Verified that the security roles and responsibilities
                             matrix was appropriate, reasonable, and complete.
                         •   Obtained feedback on the roles and responsibilities
                             matrix from business units and other IRS
                             stakeholders.
                         •   Defined physical security roles and responsibilities.
                         •   Prepared draft handbooks on the approved roles and
                             responsibilities for executives, managers, technical
                             employees, and users.
                         •   Distributed draft handbooks to executives, managers,
                             technical employees, and users.
                         •   Carried out compliance assessments but omitted
                             some functions from this process. The IRS deferred
                             some compliance assessments due to organizational
                             issues and time constraints. In addition, these
                             compliance checks were mainly based on interviews
                             with system administrators and security specialists
                             and did not include any comprehensive testing.
                      Despite these actions, existing weaknesses in other
                      computer security material weakness areas indicate that
                      security roles and responsibilities have not been effectively

                                                                              Page 4
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                      implemented. These weaknesses existed because
                      responsible employees were not carrying out their duties as
                      prescribed in the IRM or other guidance. Specifically, we
                      found:
                          •    Network administrators did not ensure routers were
                               configured to established standards.
                          •    System administrators did not correct known
                               vulnerabilities on mainframe, UNIX, and Windows
                               computer systems and did not install security
                               patches to vulnerable UNIX and Windows computer
                               systems, as required by established procedures.
                          •    Contractors did not install security patches on the
                               modernized security system.8
                          •    Security specialists did not review audit trails on
                               UNIX computer systems and modernized systems.9
                          •    Business owners did not accredit their systems and
                               did not complete annual self-assessments as required
                               by the FISMA.10
                      Not carrying out these crucial responsibilities increases the
                      likelihood that intruders or insiders could access
                      unauthorized information or disrupt computer operations
                      without detection. Until roles and responsibilities are
                      effectively carried out, the IRS will have little chance of
                      implementing effective security controls and computer
                      security will remain a material weakness.
                      We believe the breakdowns in roles and responsibilities
                      occurred because IRS employees are not being held
                      accountable for carrying out their security responsibilities.
                      8
                        The three issues caused by network administrators, system
                      administrators, and contractors were presented in our audit report,
                      Network Access, System Access, and Software Configuration Should
                      Remain Part of the Computer Security Material Weakness (draft report
                      issued August 17, 2004).
                      9
                        The issue on audit trails caused by security specialists was presented in
                      our audit report, The Use of Audit Trails to Monitor Key Networks and
                      Systems Should Remain Part of the Computer Security Material
                      Weakness (Reference Number 2004-20-131, dated September 2004).
                      10
                         The issue caused by business owners was presented in our audit
                      report, The Certification and Accreditation of Computer Systems Should
                      Remain in the Computer Security Material Weakness (Reference
                      Number 2004-20-129, dated August 2004).
                                                                                         Page 5
           Computer Security Roles and Responsibilities and Training Should
              Remain Part of the Computer Security Material Weakness

                                 While the IRS has required all employees to complete
                                 annual UNAX11 and computer security awareness briefings,
                                 it has not ensured specific security responsibilities have
                                 been adequately emphasized throughout the IRS, as required
                                 by the FISMA.
                                 The other related audit reports on the IRS’ computer
                                 security material weakness contain recommendations to
                                 address the specific breakdowns in security roles and
                                 responsibilities. Therefore, we are not repeating those
                                 recommendations in this report.
                                 Recommendation

                                 1. The Chief, Mission Assurance, should keep security
                                    roles and responsibilities as part of the computer
                                    security material weakness until corrective actions
                                    related to recommendations in our prior report12 on
                                    security roles and responsibilities and in the
                                    aforementioned material weakness reports13 have been
                                    addressed.
                                 Management’s Response: Management’s response was due
                                 on September 27, 2004. As of September 28, 2004,
                                 management had not responded to the draft report.
                                 The Department of the Treasury requires bureaus to divide
Efforts on the Segregation of
                                 and separate duties and responsibilities of critical functions
Duties Material Weakness Area
                                 among different individuals to reduce the risk of fraudulent
Justify Closure
                                 or criminal activity. Segregation of duties should prevent a
                                 single individual from being able to disrupt or corrupt a

                                 11
                                    UNAX is synonymous with Unauthorized Access and refers to the
                                 security requirement that employees access taxpayer data only for
                                 official purposes. UNAX was established by the Taxpayer Browsing
                                 Protection Act, 26 U.S.C.A. §§ 7213, 7213A, 7431 (West Supp. 2003).
                                 12
                                    Inadequate Accountability and Training for Key Security Employees
                                 Contributed to Significant Computer Security Weaknesses (Reference
                                 Number 2004-20-027, dated January 2004).
                                 13
                                    Network Access, System Access, and Software Configuration Should
                                 Remain Part of the Computer Security Material Weakness (draft report
                                 issued August 17, 2004), The Certification and Accreditation of
                                 Computer Systems Should Remain in the Computer Security Material
                                 Weakness (Reference Number 2004-20-129, dated August 2004), and
                                 The Use of Audit Trails to Monitor Key Networks and Systems Should
                                 Remain Part of the Computer Security Material Weakness (Reference
                                 Number 2004-20-131, dated September 2004).
                                                                                               Page 6
             Computer Security Roles and Responsibilities and Training Should
                Remain Part of the Computer Security Material Weakness

                                   critical security process without colluding with another
                                   employee. For example, system administrators should not
                                   be able to make unauthorized changes to computer
                                   configurations without colluding with security
                                   administrators responsible for detecting unauthorized
                                   changes to the configurations.
                                   To address the segregation of duties material weakness area,
                                   the IRS planned and completed the following actions:
                                      •   Defined and finalized security roles and
                                          responsibilities, focusing on roles for system
                                          administration, security administration,
                                          management, and other related security functions.
                                      •   Documented and distributed procedures and
                                          guidelines that recognize the principle of segregation
                                          of duties by specifying the responsibilities of key
                                          employees with security duties.
                                      •   Implemented security roles and responsibilities
                                          relating to segregation of duties.
                                   The procedures explaining segregation of duties for system
                                   administrators and security administrators were clear and
                                   the duties were separated to ensure there were no conflicting
                                   duties. The issues we identified in other reviews of
                                   computer security material weakness areas were not
                                   attributable to weaknesses in segregation of duties.
                                   Recommendation

                                   2. The Chief, Mission Assurance, has completed actions to
                                      correct weaknesses regarding segregation of duties and
                                      should remove this area from the computer security
                                      material weakness.
                                   Department of the Treasury policy requires that employees
More Actions Are Needed Before
                                   and contractors with significant security responsibilities
the Security Training Material
                                   receive annual training specific to their security
Weakness Area Is Downgraded
                                   responsibilities. The level of training should be
                                   commensurate with each individual’s duties and
                                   responsibilities and is intended to promote a consistent
                                   understanding of the principles and concepts of IT systems
                                   security. The policy also requires bureaus to have a means


                                                                                         Page 7
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                      to track, by name and position, who has received what
                      training and the costs of the training.
                      To address the security training material weakness area, the
                      IRS planned to complete the following actions by
                      December 31, 2003:
                           •   Identify security-related training needs to correspond
                               to defined security roles and responsibilities and
                               establish a core curriculum for those positions.
                           •   Identify employees with key security
                               responsibilities.
                           •   Validate and update current online and classroom
                               courses for key personnel.
                           •   Communicate training opportunities and guidance to
                               key personnel on a periodic basis.
                           •   Monitor curriculum course participation quarterly.
                      The IRS took the following actions in Calendar Year 2003
                      to address the security training material weakness:
                           •   Identified available security training courses,
                               matched courses to specific computer job positions,
                               and developed a core curriculum for key security
                               positions.
                           •   Designated all Office of Mission Assurance
                               employees as those employees who have significant
                               computer security-related duties.
                           •   Began development of the Enterprise Learning
                               Management System (ELMS), which will integrate
                               with the Department of the Treasury’s human
                               resources system (HR Connect) and help meet goals
                               set by the OMB for E-Government14 and E-Training
                               initiatives.


                      14
                        The President’s Management Agenda established E-Government as
                      the use of IT and the Internet, together with the operational processes
                      and people needed to implement these technologies, to deliver services
                      and programs to constituents, including citizens, businesses, and other
                      government agencies. E-Government improves the effectiveness,
                      efficiency, and quality of Federal Government services.
                                                                                       Page 8
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                      While the IRS initiated actions to address this material
                      weakness area, several steps were not completed or were not
                      effective. Specifically, the following steps need further
                      improvement: identifying employees with key security
                      responsibilities, effectively communicating the security core
                      training curriculum and training courses, and periodically
                      monitoring for course participation.
                      The Office of Mission Assurance did not identify all
                      employees with significant computer security-related duties.
                      The 288 employees identified as having key responsibilities
                      all reported to the Chief, Mission Assurance. Employees
                      with significant security duties assigned to the ITS
                      organization (e.g., system administrators, computer
                      specialists, and telecommunications specialists) were not
                      included.
                      While the IRS developed a core curriculum that lists
                      specific security classes for various IT positions, the
                      curriculum and guidance for using the curriculum had not
                      been effectively communicated to employees.
                      We interviewed 50 employees from 5 locations who had
                      significant security responsibilities. Eleven of
                      15 employees from the Office of Mission Assurance and
                      24 of 35 employees from the ITS organization were not
                      aware of the curriculum.
                      More importantly, employees were not receiving sufficient
                      training. During the last 2 calendar years, 7 (1 from the
                      Office of Mission Assurance and 6 from the ITS
                      organization) of the 50 employees had only 1 training class,
                      and 9 employees (1 from the Office of Mission Assurance
                      and 8 from the ITS organization) had not received any
                      security training.
                      To monitor course participation, the IRS is touting the
                      ELMS as a tool to be used by all learners, managers,
                      training administrators, and instructors. Until this system
                      becomes fully operational, the IRS is using the Automated
                      Corporate Education System (ACES) to track and monitor
                      training classes.
                      However, information on the ACES is not reliable. We
                      reviewed the ACES data for 33 employees at the 5 sites we
                      visited and found that training records were incomplete for
                                                                            Page 9
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                      11 employees. Recent training classes were not listed,
                      including e-learning (online) classes.
                      Inadequate security training for IRS employees with key
                      security responsibilities has been an ongoing problem. In
                      January 2004, we reported that employees with key security
                      responsibilities did not have sufficient training.15 Eight of
                      29 system administrators we interviewed during that review
                      did not receive sufficient training to perform their
                      security-related duties. In addition, weak educational
                      backgrounds in computer-related courses of some
                      employees made the need for training even more critical.
                      Twelve of the 29 system administrators had no formal
                      computer-related education, and 2 of those did not have any
                      computer experience prior to getting their current positions.
                      These results also raised concerns about whether employees
                      were fully qualified to perform their assigned
                      responsibilities.
                      We attribute the inadequate security training to insufficient
                      emphasis, particularly for those employees whose duties
                      require them to implement security policies and procedures.
                      In addition, the Office of Mission Assurance has not
                      established a minimum number of security-related training
                      hours, or a time period by which the key employees should
                      obtain training, and did not clearly establish who was
                      responsible or accountable for providing computer
                      security-related training to the key employees.
                      We believe computer security training should remain as part
                      of the computer security material weakness. Until
                      employees with key security responsibilities are adequately
                      trained, the IRS will have little chance of implementing
                      effective security controls and computer security will
                      remain a material weakness.
                      Recommendations

                      The Chief, Mission Assurance, should:
                      3. Keep the security training area as part of the computer
                         security material weakness until all employees with key

                      15
                       Inadequate Accountability and Training for Key Security Employees
                      Contributed to Significant Computer Security Weaknesses (Reference
                      Number 2004-20-027, dated January 2004).
                                                                                 Page 10
Computer Security Roles and Responsibilities and Training Should
   Remain Part of the Computer Security Material Weakness

                         security responsibilities, not just those in the Office of
                         Mission Assurance, have been adequately trained.
                      4. Establish a process to identify employees with key
                         security responsibilities, monitor their participation in
                         training courses, and follow up with their managers, if
                         necessary. In addition, the Chief, Mission Assurance,
                         should consider requiring a minimum number of
                         security training hours for all employees with key
                         security responsibilities, to encourage enrollment in
                         training classes.
                      The Chief Information Officer should:
                      5. Ensure his employees with key security responsibilities,
                         particularly system administrators and security
                         specialists, are adequately trained to perform security
                         duties and tasks.




                                                                             Page 11
              Computer Security Roles and Responsibilities and Training Should
                 Remain Part of the Computer Security Material Weakness
                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has effectively resolved the vulnerabilities associated with its computer security material
weakness. The IRS segregated this material weakness into nine areas,1 three of which are
addressed in this report: security roles and responsibilities, segregation of duties, and training.
I.      To determine whether the IRS identified the significant vulnerabilities that need to be
        corrected before closing the weaknesses, we interviewed Office of Mission Assurance
        and Information Technology Services (ITS) organization staff and reviewed relevant IRS
        and Treasury Inspector General for Tax Administration documentation and reports on the
        IRS’ approach to resolving the material weakness. We specifically followed up on our
        report on security roles and responsibilities.2
II.     To determine whether the actions taken to resolve the specific vulnerabilities were
        sufficient to close the weaknesses, we interviewed IRS staff, reviewed documentation,
        conducted site visits of IRS validations and corrective actions, and evaluated the actions.
III.    To determine whether the actions taken to resolve the vulnerabilities were fully
        implemented nationwide, we interviewed ITS organization staff and reviewed
        implementation schedules, coverage of implementation, and methodology behind the
        implementation.
IV.     To determine the effectiveness of the IRS’ actions to resolve the specific vulnerabilities,
        we interviewed 50 employees from the Mission Assurance and ITS organizations
        at 5 locations (the IRS Headquarters in New Carrollton, Maryland; the
        Brookhaven, New York , and Memphis, Tennessee, Campuses;3 and the
        Martinsburg, West Virginia, and Memphis, Tennessee, Computing Centers4), reviewed
        documentation, and identified criteria for resolving the vulnerabilities. The sites visited
        were based on IRS offices with high numbers of mainframe systems, Unix-based servers,
        and Windows-based servers. The employees selected were based on available System



1
  The computer security material weakness consists of (1) network access controls; (2) key computer applications
and system access controls; (3) software configuration; (4) functional business, operating, and program units
security roles and responsibilities; (5) segregation of duties between system and security administrators;
(6) contingency planning and disaster recovery; (7) monitoring of key networks and systems; (8) security training;
and (9) certification and accreditation.
2
  Inadequate Accountability and Training for Key Security Employees Contributed to Significant Computer Security
Weaknesses (Reference Number 2004-20-027, dated January 2004).
3
  IRS campuses process paper and electronic submissions, correct errors, and forward data to the Computing Centers
for analysis and posting to taxpayer accounts.
4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                          Page 12
             Computer Security Roles and Responsibilities and Training Should
                Remain Part of the Computer Security Material Weakness
        Administrators and Security Specialists who had responsibility over the selected servers
        in our other material weakness reviews.
        A.      For the security roles and responsibilities area, we determined if:
                1.      Federal Information Security Management Act5 (FISMA) reviews were
                        effective.
                2.      Managers actively provided employees with security awareness training.
                3.      Managers reviewed and approved Automated Information System (AIS)
                        User Registration/Change Requests (Form 5081) for system access
                        privileges.
                4.      Weaknesses identified in other computer security material weakness
                        reviews could be linked to employee rules of behavior and security roles
                        and responsibilities.
        B.      For the segregation of duties area, we determined if the following roles were
                appropriately segregated:
                1.      Approving and installing system patches and upgrades.
                2.      Approving, adding, and removing users from systems.
                3.      Performing system administration, reviewing systems for security
                        violations, and responding to security violations.
                4.      Any other key roles identified through the interview process.
        C.      For the training area, we determined if:
                1.      IRS managers had identified core skills for security personnel and
                        employees were familiar with the core training curriculum for their
                        positions.
                2.      The Office of Mission Assurance had identified specific security classes
                        and schedules for security staff.
                3.      Continuing professional education requirements had been established,
                        monitored, and met.
                4.      Security personnel received necessary and relevant training for 33 of the
                        50 employees where training information was available.
                5.      Training issues identified from our audit results on the FISMA6 were
                        addressed.



5
 Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
6
 Performance Data for the Security Program Should Be Corrected (Reference Number 2004-20-093, dated
April 2004).
                                                                                                      Page 13
            Computer Security Roles and Responsibilities and Training Should
               Remain Part of the Computer Security Material Weakness

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Mary Jankowski, Senior Auditor
Louis Lee, Senior Auditor
Abraham B. Millado, Senior Auditor
Charles Ekholm, Auditor




                                                                                         Page 14
           Computer Security Roles and Responsibilities and Training Should
              Remain Part of the Computer Security Material Weakness

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Assurance Programs OS:MA:AP
Director, Business Systems Development OS:CIO:I:B
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Networks OS:CIO:I:EN
Director, Enterprise Operations Services OS:CIO:I:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance OS:MA




                                                                                     Page 15
